<html>
<title> - MARKUP OF H. RES. 543, H.R. 3289, H.R. 4270, H. RES. 517, H. RES. 387,H. RES. 552, AND H. RES. 521</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


MARKUP OF H. RES. 543, H.R. 3289, H.R. 4270, H. RES. 517, H. RES. 387, 
                      H. RES. 552, AND H. RES. 521

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           September 25, 2019
                               __________

                           Serial No. 116-67
                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-847PDF                 WASHINGTON : 2020 




                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             	MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York                Member
ALBIO SIRES, New Jersey			CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia		STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida		JOE WILSON, South Carolina
KAREN BASS, California			SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts		TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island		ADAM KINZINGER, Illinois
AMI BERA, California			LEE ZELDIN, New York
JOAQUIN CASTRO, Texas			JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada			ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York		BRIAN MAST, Florida
TED LIEU, California			FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania		BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota		JOHN CURTIS, Utah
ILHAN OMAR, Minnesota			KEN BUCK, Colorado
COLIN ALLRED, Texas			RON WRIGHT, Texas
ANDY LEVIN, Michigan			GUY RESCHENTHALER, Pennsylvania			
ABIGAIL SPANBERGER, Virginia		TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania		GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey		STEVE WATKINS, Kansas
DAVID TRONE, Maryland			MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                                    
                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                    MEASURES AND AMENDMENTS EN BLOC

H. Res. 543, Recognizing Hong Kong's bilateral relationship with 
  the U.S........................................................    16
Amendment in the Nature of a Substitute to H. Res. 543 offered by 
  Mr. Sherman....................................................    24
H.R. 3289, Hong Kong Human Rights and Democracy Act of 2019......    33
Amendment in the Nature of a Substitute to H.R. 3289 offered by 
  Mr. Smith......................................................    61
H.R. 4270, Protect Hong Kong Act.................................    77
Amendment in the Nature of a Substitute to H.R. 4270 offered by 
  Mr. Engel......................................................    85
H. Res. 517, Supporting the Global Fund to fight AIDS, TB, 
  malaria, and its Sixth Replenishment...........................    91
H. Res. 387, Condemning continued violence against civilians by 
  armed groups in the Central American(sic) Republic.............    95
Amendment to H. Res. 387 offered by Mr. Engel....................   101
H. Res. 552, Calling on the Government of the Russian Federation 
  to release Paul Whelan.........................................   102
H. Res. 521, which commends the Canadian Government for their 
  efforts in extracting a Huawei Executive.......................   105

                                APPENDIX

Hearing Notice...................................................   110
Hearing Minutes..................................................   111
Hearing Attendance...............................................   112
Markup Summary...................................................   113

 
   MARKUP OF H. RES. 543, H.R. 3289, H.R. 4270, H. RES. 517, H. RES. 
                         387,H. RES. 552, AND 
                              H. RES. 521

                     Wednesday, September 25, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 10 a.m., in room 
2172 Rayburn House Office Building, Hon. Eliot Engel (chairman 
of the committee) presiding.
    Chairman Engel. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point. Pursuant to Committee 
Rule 4, the chair announces that the chair may postpone further 
proceedings on approving any measure, or matter, or adopting an 
amendment.
    Without objection, all members may have 5 days to submit 
statements or extraneous material on today's business.
    As members were notified yesterday, we intended to consider 
today's measures and amendments en bloc. Pursuant to notice, 
for purposes of markup I will now call up the en bloc passages 
consisting of seven measures:
    First, H. Res. 543, Recognizing Hong Kong's bilateral 
relationship with the U.S., with an amendment in the nature of 
a substitute;
    Two, H.R. 3289, Hong Kong Human Rights and Democracy Act of 
2019, with an amendment in the nature of a substitute;
    H.R. 4270, Protect Hong Kong Act, with an amendment in the 
nature of a substitute;
    H. Res. 517, Supporting the Global Fund to fight AIDS, TB, 
malaria, and its Sixth Replenishment;
    H. Res. 387, Condemning continued violence against 
civilians by armed groups in the Central American(sic) 
Republic, with an Engel amendment;
    H. Res. 552, Calling on the Government of the Russian 
Federation to release Paul Whelan, and finally;
    H. Res. 521, which commends the Canadian Government for 
their efforts in extracting a Huawei executive.
    At this time I recognize myself to speak on today's 
business. And I am pleased to support all of the measures 
before us today, and I thank our members for their hard work. I 
want to start by discussing our strong measures that address 
the situation in Hong Kong.
    Over the past months we have watched as the people of Hong 
Kong have bravely and tirelessly protested for their rights and 
their freedoms. And we are watching in realtime as Beijing 
tries to flex its muscles and stifle this democratic dissent. 
Thirty years after the Tiananmen Square massacre Chinese 
authorities are still trying to use violence and intimidation 
to crush fundamental freedoms.
    To the Chinese Communist Party and those seeking to 
undermine Hong Kong's freedom and autonomy let me be crystally 
clear: the House Foreign Affairs Committee will not just sit 
idly by. So, I am pleased we have a number of good measures 
before us today to demonstrate our support for the Hong Kong 
people at this critical time.
    First, we have Mr. Smith's Hong Kong Human Rights and 
Democracy Act, which requires regular evaluations of Beijing's 
aggressive attempts to interfere in Hong Kong society.
    We also have Mr. Sherman's resolution that condemns China's 
intrusions in Hong Kong's affairs, and supports the people of 
Hong Kong's right to protest.
    And there is Mr. McGovern's PROTECT Hong Kong Act which 
addresses the disturbingly excessive use of force by the Hong 
Kong police against protestors. This bipartisan bill ensures 
that U.S. weapons are not being used to contribute to these 
horrific abuses.
    All three of these measures are important ways for us to 
take a stand on these critical issues, and I am pleased to 
support them all.
    Another measure on China today is Mr. McCaul's H. Res. 521. 
China has essentially been playing a game of hostage diplomacy 
with our ally and neighbor Canada, arresting and detaining 
Canadian citizens purely to retaliate against Canada's lawfully 
arresting a Huawei executive. This measure rightly shows our 
support for Canada, upholding the rule of law, and expresses 
concern over this dangerous and inappropriate response from the 
Chinese Government.
    Next, we have a measure dealing with an American citizen 
being wrongfully held in prison abroad. Russia's Vladimir Putin 
and his cronies have kept American Paul Whelan locked up for 
over 8 months without providing so much as a shred of evidence 
that he has done anything wrong. H. Res. 552 calls on the 
Russian Government to provide evidence or release Mr. Whelan so 
he can come home to the United States and receive the proper 
medical treatment he so urgently needs. Every day he spends in 
that Russian prison is yet another day spent suffering. This is 
another reminder of the kind of leader Putin is, and something 
we should all keep in mind.
    I strongly support this measure. And I want to thank 
Representative Stevens for his hard work to seek justice for 
Paul Whelan and his family.
    Next, I will turn to my resolution with Mr. McCaul that 
demonstrates Congress' bipartisan support for the Global Fund 
to fight AIDS, tuberculosis, and malaria. The Global Fund has 
contributed to incredible achievements in the fight against 
some of the world's most terrible diseases. We cannot accept 
the Trump amendments--Trump Administration's drastic cut to 
this lifesaving program, so I am pleased that we are moving 
this forward, and hope all members will join me in supporting 
it.
    Finally, we turn to the Central African Republic with their 
over 1 million people displaced by horrific violence and 
instability. Mr. Cicilline and Mr. Fortenberry's resolution 
before us today condemns the random violence of armed groups in 
the Central African Republic, and supports the country's 
efforts to move toward stability and accountability. It is a 
good measure that shows we are paying attention to this 
critical issue. And I hope all members will join me in 
supporting it.
    Again, I am pleased to support all the measures on today's 
markup, and I urge all members on both sides to join me in 
doing so.
    And I will now recognize our ranking Member Mr. McCaul of 
Texas for his remarks.
    Mr. McCaul. Thank you, Mr. Chairman. I just want to thank 
you again for your bipartisanship. I was on the floor yesterday 
with Congressman Levin debating six bills that we passed on 
suspension dealing with human rights in Burma, and genocide. 
And it just makes me proud to be a part of this committee.
    And today we are going to mark up two bipartisan bills and 
five bipartisan resolutions. And I want to start by thanking 
you, Chairman Engel, for your work on H. Res. 517 supporting 
the Global Fund, which I am proud to be the lead Republican on 
this effort. It is vitally important. As you mentioned, the 
cuts were unacceptable. I think you and I standing together to 
fully fund this Global Health Fund, right now in the United 
Nations is, the Assembly is in New York right now, and there 
will be a global health conference in Lyons, France, in 
October.
    I think this important piece of legislation will send a 
strong message to the world that we intend to fully fund it. 
And we also want full participation from other countries.
    Today we will consider three very important Hong Kong 
measures. Last week I was proud to join Speaker Pelosi, and 
you, sir, and Mr. Engel, Congressman Smith, the author of the 
bill, and Jim McGovern, and several Hong Kong pro-democracy 
activists to denounce China's authoritarian brutality. I said 
it then and I will say it again: today we stand not as 
Republicans or Democrats but as Americans united in our strong 
support for Hong Kong.
    And as I said at the press conference directly to the 
people of Hong Kong, America stands with you, and we will 
always support you. We hear you sing our national anthem and we 
see you carrying our American flag. This is a battle between 
democracy versus dictatorship, liberty versus tyranny, and 
freedom versus oppression.
    And I am pleased that today we will consider Mr. Smith's 
Hong Kong Human Rights and Democracy Act which sends a clear 
message to China that there will be consequences to their 
ruthless and brutal actions. This committee, this Congress, and 
the United States and the world will not stand by idly as the 
Chinese Communist Party fights for itself and not its own 
people.
    I know we have read many reports coming out of China after 
our press conference. I am sure we will hear many today. I wear 
that as a badge of honor.
    I would also like to highlight H. Res. 521, which I 
introduced with my good friend Chairman Engel. This resolution 
commends Canada for upholding the rule of law regarding 
extradition of Huawei Technology's chief financial officer Meng 
Wanzhou. It also expresses concern with China's retaliatory and 
hostile actions against Canadian citizens detained in China.
    China's hostage diplomacy is abhorrent. Canadian citizens 
Michael Kovrig and Michael Spavor have been detained in China 
since last year without due process, and have been subjected to 
harsh conditions, such as limited consular access, no attorney 
representation, and lengthy interrogations.
    Meanwhile, Ms. Meng, on the other hand, has received proper 
treatment in Canadian custody, with all her legal, health, and 
other needs attended to, and is currently released on bail. 
What a difference in the two criminal justice systems. I 
commend Canada, and regret that the Canadian citizens are 
paying the price for China's malfeasance. Canadian citizens 
must be released immediately.
    Finally, we all need to remember that Huawei is supported 
by the Chinese Government and is responsive to its leaders. Our 
data is not safe or secure on their systems. And I appreciate 
Australia--and I was at the embassy last weekend with the prime 
minister--and other countries who have pushed back against 
Huawei.
    So, Mr. Chairman, I look forward to supporting you and 
these measures today, and I yield back the balance of my time.
    Chairman Engel. Thank you, Mr. McCaul.
    Mr. Sherman.
    Mr. Sherman. I am pleased that the chair and ranking member 
have guided us here to a group of legislation that we can all 
be proud of. I am pleased to co-sponsor all the bills under 
consideration. And once again this committee sets a standard 
for bipartisanship.
    Particularly want to focus on the stand with Hong Kong 
resolution, which I introduced along with Ms. Wagner, Mr. 
Connolly, Mr. Yoho, and of course we have other co-sponsors as 
well. This demonstrates that the so-called Extradition Bill is 
an infringement on the rights, the autonomy rights of Hong 
Kong, and that we stand with the protestors and their fine 
demands: the complete withdrawal of this Extradition Bill, the 
implementation of universal suffrage, and the election of a 
chief executive and all members of the Legislative Council, the 
establishment of an independent commission to investigate 
police conduct during the protests, the declassification of the 
protestors as rioters, and the dropping of all charges against 
persons who participated in the protests.
    We are also considering, and I am pleased to co-sponsor, 
the Hong Kong Human Rights and Democracy Act and the PROTECT 
Hong Kong Act.
    I join with Mr. Cicilline in his concern for what is 
happening in the Central African Republic.
    I commend the chairman for his resolution regarding our 
commitment to the Global Fund to fight AIDS, tuberculosis, and 
malaria.
    And, of course, we need to call for the proper handling of 
the complaint against an American citizen, Paul Whelan, who is 
being held by Russia, and with Russia not as of yet producing 
charges or credible evidence.
    And, of course, Canada is to be commended for its steadfast 
adherence to its obligations under the extradition treaty with 
the United States in connection with the chief financial 
officer of Huawei. Unfortunately, Canadian nationals are being 
held in response. We need to make a claim to China that it is 
very hard to do business when they engage in hostage diplomacy.
    So, I urge a yes vote on all the bills. And I yield back.
    Chairman Engel. Thank you, Mr. Sherman.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    And, Mr. Chairman, as you and Ranking Member McCaul, and 
other members of this committee know so well, the 1984 Sino-
British joint declaration that facilitated the conveyance of 
Hong Kong from the U.K. to the PRC beginning July 1st, 1997, 
was absolutely clear that autonomy, human rights, including 
press assembly, association, and religion would be exactly the 
same as before the hand-over for at least 50 years. And that 
would take them to the year 2047.
    The basic law of Hong Kong adopted by China's National 
People's Congress in 1990 was also clear that autonomy and 
rights would be protected, again, with no diminution whatsoever 
of that autonomy and rights until 2047. Today, however, those 
promises solemnly undertaken by Beijing have seriously eroded 
and, as stated in the most recent State Department report, they 
have been diminished.
    Since that report, however, things have gotten demonstrably 
worse. So, I would like to thank--On a daily basis we are 
reminded of the desire of the brave people of Hong Kong to be 
free and how the totalitarian regime of Xi Jinping is working 
to dismantle the rights and liberties of the people of Hong 
Kong.
    So, I would like to thank Chairman Engel, Ranking Member 
McCaul, and their staff, for working diligently with my staff 
and with the lead Democratic co-sponsor Jim McGovern, and the 
Speaker's staff to bring the Hong Kong Human Rights Democracy--
and Democracy Act to markup. This legislation is timely and it 
is essential.
    Five years ago I first introduced the Hong Kong Human 
Rights and Democracy Act, co-sponsored by House Speaker Nancy 
Pelosi, and then on the Senate side with co-chair of the China 
Commission, Senator Sherrod Brown. The bill allowed for more 
flexible and robust U.S. responses to the steady erosion of 
Hong Kong's autonomy and human rights.
    Over the years we have upgraded the bill. This is the 
fourth time we have introduced it. But, again, this comes at 
the most critical time. Look how many people are out on the 
streets. Joshua Wong had the press conference last week, and he 
said it in a Washington Post article back in June, that at one 
point there were 2 million people on the streets. That is one-
fourth of the entire population of Hong Kong.
    So, again I want to thank my good friends and colleagues 
for co-sponsoring, including many members of this committee. 
Specifically, the bill directs the Secretary of State to 
certify to Congress annually whether the Hong Kong--whether 
Hong Kong continues to deserve special treatment under U.S. law 
different from mainland China in such matters as trade, 
customs, sanctions enforcement, law enforcement cooperation, 
and protection of human rights and the rule of law.
    It also underscores the need for the State Department not 
to deny entry visas based on the applicant's arrest or 
detention for participating in non-violent protest activities 
in Hong Kong.
    I requires the annual report on whether the Hong Kong 
Government adequately enforces U.S. export controls and 
sanctions laws, requires the Secretary of State to submit a 
strategy to Congress to protect U.S. citizens and businesses in 
Hong Kong from erosion of autonomy and the rule of law because 
of actions taken by the Chinese Communist Government, 
especially in Beijing.
    It requires the President to identify and sanction persons 
in Hong Kong or in mainland China responsible for the erosion 
of human right and Hong Kong's autonomy.
    The particular amendment in the nature of a substitute 
further directs the State Department to provide greater 
analysis of the threats to Hong Kong's autonomy and extend the 
period of reporting by requiring certification by the Secretary 
of State. It helps to ensure an honest evaluation of the 
situation as it really is on the ground, much as our annual 
trafficking in persons tier rankings are intended to do.
    And it contains a waiver provision, agreed to by both sides 
of the aisle, to ensure that our actions enhance the autonomy 
of Hong Kong rather than inadvertently harming it.
    I would also like to urge passage of Chairman McGovern's 
PROTECT Hong Kong Act, which I am the lead Republican co-
sponsor. Congressman McGovern and I were the first Members of 
Congress to call on the Trump Administration to suspend the 
sale of tear gas, rubber bullets, pepper spray, and other crowd 
control equipment to the Hong Kong police. In tandem with the 
Hong Kong Human Rights Democracy Act, Congress is sending a 
clear bipartisan and bicameral statement. And I do urge support 
for this legislation.
    Chairman Engel. Thank you, Mr. Smith.
    Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair. I want to thank my 
colleague Representative Cicilline for introducing H. Res. 387. 
I am discouraged by the continuing violence between rival armed 
groups in the Central African Republic that has caused 
fatalities and injuries to innocent citizens and peacekeepers. 
The recent clashes between the Popular Front for the 
Renaissance of the Central African Republic and the movement of 
the Central African Freedom Fighters for Justice is a direct 
conflict of the peace deal signed by 14 armed groups in 
February of this year.
    I am concerned about the effectiveness of ending the 
violence that has plagued the country since the removal of the 
former President Bozize in 2013.
    Furthermore, this unrelenting conflict has forced millions 
of CAR's residents to migrate to neighboring countries, fleeing 
their homes and livelihoods. I also condemn the violence 
against innocent civilians and humanitarian workers, and I call 
on the international community to help find long-term, 
sustainable solutions that will help stabilize the region.
    CAR has made progress toward democracy, justice, and 
accountability by holding democratic elections in 2016, and by 
establishing the Special Criminal Court and Peace Committee in 
2017.
    Since 2013, the U.S. has been the largest single donor to 
the humanitarian response in CAR, and has remained involved in 
peace throughout the country--in promoting peace throughout the 
country. This measure resolves that the U.S. must maintain 
strong leadership and support in CAR to ensure regional 
security and stability. The resolution condemns violence 
committed by all armed actors within CAR.
    What is very important about this resolution is that it 
calls for coordination between U.S. agencies in providing 
assistance, and for the U.S. Embassy in Bangui to have adequate 
staff and funding. This is critical for supporting this 
partnership with the Central African Republic.
    I also want to thank Chairman Engel and Ranking Member 
McCaul for introducing H. Res. 517. This resolution outlines 
the value of the Global Fund's contribution to fighting AIDS, 
malaria, and TB; highlights the historical U.S. leadership role 
with the Global Fund; and references the upcoming replenishment 
and contributions by other countries to date.
    Thank you and I yield back.
    Chairman Engel. Thank you, Ms. Bass.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I want to focus on 
Hong Kong and on the three related measures we have before us 
today, and I will be relatively brief, namely, the Hong Kong 
Human Rights and Democracy Act authored by Mr. Smith; Mr. 
McGovern's PROTECT Hong Kong Act; and Mr. Sherman's resolution 
on the protests. All of them I am supportive and thank them for 
offering these, and thank them for their leadership.
    Over the past several months we have watched as the people 
of Hong Kong have bravely stood up to the Chinese Communist 
Party demanding that Hong Kong authorities withdraw the 
Extradition Bill that would have further eroded Hong Kong's 
economy. When Britain handed Hong Kong back to the Chinese 
Communist Party, Hong Kong was guaranteed basic human rights, 
basic freedoms, along with a substantial degree of autonomy.
    The Chinese Communist Party proceeded to break all those 
promises, not surprisingly, like most of the other promises 
that they had broken over time. True to form, they have worked 
to steadily erode Hong Kong's independence. And the Extradition 
Bill is only the last straw for the people of Hong Kong who 
have no desire to live under the yoke of the PRC, where dissent 
is a crime, and basic human rights ignored.
    After months of delay, Beijing ultimately let Hong Kong's 
leadership withdraw the Extradition Bill, but not before the 
people of Hong Kong became determined to not only defeat the 
bill but also to win back some of their long-lost freedoms. As 
protests continue as we approach October 1st, the 70th 
anniversary of the Chinese Communist Party's bloody rule, the 
jury is still out on whether we will actually see something 
akin to Tiananmen Square once again.
    I would just like to conclude by saying that the erosion of 
basic human rights that we are witnessing in Hong Kong, it is 
really the basic nature of the CCP, the Chinese Communist 
Party. It is what they are all about. Look no further than 
Xinjiang, than Tibet. We have seen this time and time again 
that the people under their yoke really have no freedoms at 
all.
    That is the vision of the Chinese Communist Party, not only 
there, but their vision for the way the rest of the world ought 
to be under their yoke. We must never let their vision triumph.
    I am proud, and happy, and thank my colleagues on both 
sides of the aisle that today we are standing with the people 
of Hong Kong by enacting these measures. And I want to thank my 
colleagues for doing that.
    I would urge support of these and yield back.
    Chairman Engel. Thank you, Mr. Chabot.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Chairman Engel. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. As a co-sponsor of H. 
Res. 552 I am deeply saddened but not surprised that we must 
call on the government of the Russian Federation to release 
U.S. resident Paul Whelan. It is nearly 9 months since Paul's 
arrest occurred on December 28th.
    The Russian Government has refused to provide any evidence 
to substantiate the espionage charges against Paul. They 
continue to hold Paul in pretrial detention, consistently 
delaying his trial, subjecting him to physical and 
psychological pressure, denying him the ability to speak freely 
with U.S. Embassy staff or receive some of the basic privileges 
to which Russian prisoners in the United States are entitled, 
such as the opportunity to speak with family members.
    The Russian Government has consistently denied requests for 
Paul to be examined or treated by a private physician to 
address pre-existing health concerns. These concerns have been 
reiterated to the Russian Government time and time again by the 
U.S. Embassy, as well as the embassies of the United Kingdom, 
Ireland, Canada, and all the countries of which Paul has 
citizenship.
    I have spoken frequently with Paul's sister Elizabeth, who 
has seen firsthand the pain and the anguish Paul's continued 
detention has caused, not only for him but for the members of 
his family.
    I hope you will support H. Res. 552, and join me in urging 
the Government of Russia to provide the evidence against Paul, 
allow a fair and transparent judicial process without delay, 
facilitate Paul's medical care, and allow for unrestricted 
visits with the U.S. Embassy. The Russian Government has not 
been able to provide evidence against Paul. And we must all 
stand with the United Kingdom, Ireland, and Canada in calling 
for Paul's immediate release.
    I yield back.
    Chairman Engel. Thank you, Mr. Keating.
    Mr. Yoho. Oh, Mr. Wilson.
    Mr. Wilson. No, no. I yield to Mr. Yoho. But please keep me 
on the list.
    Chairman Engel. You will be next, Mr. Wilson.
    Mr. Wilson. Thank you.
    Chairman Engel. I promise.
    Mr. Yoho. It is an honor to go ahead of Mr. Wilson. I 
appreciate it.
    I want to thank you, Mr. Chairman, for allowing this to 
happen, and Ranking Member McCaul. These measures include H. 
Res. 543 by Representative Sherman, H.R. 3289 by Representative 
Smith, and H.R. 4270 by Representative McGovern, and I am a 
proud co-sponsor of all three.
    Representative Sherman's resolution recognizes Hong Kong's 
bilateral relationship with the United States, condemns the 
interference of the People's Republic of China in Hong Kong 
affairs, and supports the people of Hong Kong's rights to 
protest.
    H.R. 4270, the PROTECT Hong Kong Act, prohibits the export 
of riot control equipment like tear gas to the Hong Kong 
police. This is in response to the continuing concerns 
regarding human rights abuses against Hong Kong demonstrators 
by the Hong Kong police.
    H.R. 3289, the Hong Kong Human Rights and Democracy Act, 
builds on the Hong Kong Policy Act, the cornerstone for our 
bilateral relationship, and allows the Administration to 
reexamine our special relationship with Hong Kong and revoke 
privileges should the autonomy and freedoms of Hong Kong 
continue to erode. This bill applies sanctions to human rights 
abusers, and ensures that visas are not blocked by pro-
democracy protestors.
    Each of these measures demonstrates the United States' 
continued commitment to preserving the autonomy and freedom of 
Hong Kong and its people. And we have witnessed the impact of 
these bills firsthand as pro-democracy's demonstrators in Hong 
Kong stood outside U.S. consulates waving U.S. flags, and 
asking the U.S. Government to help them.
    As Members of Congress, we must continue to provide 
strength through unity to the Hong Kongers who are desperately 
protecting the freedoms and liberties they hold dear. Over the 
past 4 months mass civilian protests in Hong Kong have begun to 
shed light on the deterioration of the Chinese Communist 
Party's suppression of freedom. Rising resentment in Hong Kong 
is not simply a result of ill-fated--of the ill-fated 
extradition law championed by Chief Executive Carrie Lam, but 
now the continued encroachment on freedom and liberties by 
emperor Xi Jinping and the CCP.
    Despite the 1997 British-Chinese agreement, leaders in 
Beijing continue to dishonor that agreement, and Hong Kong's 
autonomy continues to disappear. The protestors now maintain 
the five demands. We have heard them talked about today. The 
only one that has been removed was by Chief Executive Lam, and 
that was the Extradition Bill. In response to this continued 
unrest, the CCP through acts of ignorance has continued to cast 
blame on the United States and other democratic nations for 
interfering in Hong Kong's internal affairs and encouraging 
mass civil protests.
    In response to recent Tweets by me and some of our 
colleagues, the Chinese foreign minister released a statement 
that said, ``I cannot help asking the relevant Senators and 
House Representatives, Are you lawmakers or are you law 
breakers? Hong Kong affairs are entirely internal affairs, and 
you are neither entitled nor qualified to comment on them. Mind 
your own business and stay out of Hong Kong affairs.''
    The CCP will continue to blame western nations for standing 
with the people of Hong Kong, as the party's biggest fear is 
freedom in their own backyard. It is not the U.S. to blame. The 
cause is simple, it is freedom and liberty. The people of Hong 
Kong have experienced these. They cherish, they cherish them 
and they do not want to lose them.
    Unfortunately, Xi Jinping and the Chinese Communist Party 
do not understand liberty and freedom because they have neither 
experienced either one of them. I urge China to not make the 
same mistake they did 30 years ago in Tiananmen Square by 
bringing violence into the struggle. I stand with Hong Kong and 
will continue to support personal freedoms and democracy in 
Hong Kong. And I ask my colleagues to do the same.
    I yield back.
    Chairman Engel. Thank you, Mr. Yoho.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman. And thank you to you, 
Mr. Chairman, and to Ranking Member McCaul for introducing H. 
Res. 517, Supporting the Global Fund to fight AIDS, 
Tuberculosis, Malaria, and its Sixth Replenishment.
    As a member of the Foreign Affairs Subcommittee charged 
with protecting health and human rights across the globe, we 
have a responsibility to do everything within our power to 
shape a future in which no child, woman, or man dies from a 
preventable or treatable disease. The Global Fund puts us on 
the path to combat and ultimately eradicate the epidemics of 
AIDS, tuberculosis, and malaria around the world.
    Since its creation in 2002, more than 27 million lives have 
been saved in countries where the Global Fund invests. Across 
the world the Fund has come to be seen as a model for 
developing effective partnerships between governments, the 
private sector, civil society, and affected communities to take 
on health epidemics. The Global Fund has contributed to 
extraordinary improvements in global health over all. It is the 
world's largest financier of treatment and prevention programs 
for AIDS, tuberculosis, and malaria.
    The Fund has helped to reduce by half the number of AIDS-
related deaths since 2005, contributed to a 37 percent decline 
in tuberculosis deaths from 2000 to 2016, and a 60 percent 
decline in the number of malaria deaths since 2000. Despite 
this progress, far too many people, including far too many 
children, lack access to the most basic health care services 
and medicine. That is why it is so essential that we pass H. 
Res. 517 with a resounding bipartisan vote.
    This resolution rightly commends the work of the Global 
Fund and its partners for their contributions in decreasing the 
prevalence of AIDS, tuberculosis, and malaria, while also 
reaffirming Congress' support for the Global Fund by providing 
robust U.S. funding so that we can make greater progress.
    As we redouble our efforts to advance global health, we 
should also urge other donor countries to step up the fight 
against these diseases, and increase their pledges with a Sixth 
Global Fund Replenishment. And we should, we should urge 
countries that receive support from the Global Fund to meet 
ambitious co-financing requirements to sustain the progress on 
ending these epidemics.
    I am proud to co-sponsor and vote in support of H. Res. 
517, a resolution supporting the Global Fund to fight AIDS, 
tuberculosis, malaria, and its Sixth Replenishment. I want to 
thank Chairman Engel and Ranking Member McCaul for introducing 
this resolution. And I urge my colleagues on both sides of the 
aisle to vote yes on H. Res. 517.
    Thank you. I yield back.
    Chairman Engel. Thank you, Ms. Wild.
    Now, Mr. Wilson, it is finally your turn.
    Mr. Wilson. I especially thank you, Mr. Chairman.
    Thank you, Chairman Eliot Engel and Republic Leader Michael 
McCaul for bringing these important measures before us today. I 
am grateful for the bipartisan support this committee is 
showing today in support of the brave people of Hong Kong.
    For 16 consecutive weeks now the world has witnessed the 
brave people of Hong Kong stand up and promote self-
determination of their destiny from Beijing. The world deluded 
itself to believe that China would honor its pledge of ``one 
country, two systems'' after the British Government handed over 
control of Hong Kong to China in 1997. But Hong Kong is a model 
of openness for the people of China. Hong Kong stands as a 
clear example to the average Chinese people that you can be 
both free and rich. It is a symbol of everything Americans hold 
dear.
    I appreciate so much President Donald Trump has 
courageously identified the democratic aspirations that are 
bursting under the chains of tyranny. My interest for the 
people of China is personal in that my father in 1944 served 
with the Flying Tigers in Chengdu, Ziyang, and Kunming, where 
he appreciated and supported the Chinese people to resist 
aggression.
    I am grateful to be a co-sponsor of all three measures 
today that deal with Hong Kong. Thank you to our colleagues 
Brad Sherman, Chris Smith, and Jim McGovern for their hard work 
on the Hong Kong bills before us. This is a critical issue that 
requires strong and united leadership, and I am grateful that 
this committee is doing just that by marking up the measures 
today.
    Last, I would like to express my strong support for 
Chairman Eliot Engel and Republic Leader Michael McCaul's H. 
Res. 517 supporting the Global Fund. Since its inception in 
2001, the Global Fund has raised nearly $50 billion in support 
of fighting AIDS, tuberculosis, and malaria. In 2018 alone, the 
Global Fund distributed 131 million mosquito nets to prevent 
malaria, treated 5.3 million people with TB, and provided 
medication to 18.9 million people living with HIV. Thirty-two 
million lives have been saved thanks to the Global Fund since 
2001.
    I am grateful to stand with this committee in support of 
the lifesaving work made possible by the Global Fund. I urge my 
colleagues to do as well.
    With that, I yield back the balance of my time.
    Chairman Engel. Thank you, Mr. Wilson.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you and thank 
Ranking Member McCaul for holding this markup today and for 
once again bringing up a bipartisan slate of important bills 
that will express this committee's support for peaceful 
protestors in Hong Kong; demonstrate our ongoing commitment to 
fighting TB, malaria, and AIDS through the Global Fund; hold 
authoritarian governments to account; and express our support 
for peace in the Central African Republic.
    I think these bills form a testament to our values as a 
committee that has historically been upheld to our foreign 
policy.
    I am proud to co-sponsor H. Res. 543, Mr. Sherman's 
resolution recognizing the strong bilateral relationship 
between Hong Kong and the United States; Mr. Smith's bill, the 
Hong Kong Human Rights and Democracy Act; and Mr. McGovern's 
bill to restrict the sale of certain crowd control items to the 
Government of Hong Kong.
    For weeks, the people of Hong Kong have taken to the 
streets to protest the authoritarian actions of the Chinese 
Government at every-increasing attempts to control Hong Kong. 
These brave protestors have persisted despite brutal actions on 
the part of the Hong Kong police and the ongoing threat of 
retaliation from mainland China. The people of Hong Kong 
deserve to determine their own future, and the United States 
must speak out against any government that uses aggressive and 
illegal tactics against peaceful protestors.
    I want to turn to H. Res. 387, a bipartisan resolution I 
introduced with our colleague Jeff Fortenberry supporting the 
peace process and the ongoing American development efforts in 
the Central African Republic. I want to thank the Better World 
Campaign, the U.N. Foundation for their leadership on issues 
related to CAR, and for organizing the trip that I took along 
with members of Mr. Fortenberry's team so that we could see 
firsthand the challenges to maintaining peace in the country.
    I also want to thank Chairwoman Bass and Chairman Engel for 
their ongoing engagement on this issue. I was lucky enough to 
travel to CAR and know the promise and peril. I have met with 
the Central African Republic leadership and worked with Mr. 
Fortenberry to craft legislation that lays out an important 
roadmap for the country to move beyond the current strike to 
find a lasting political solution to the conflict.
    I want to begin by highlighting the importance of 
peacekeeping in general, and specifically within the country as 
the U.N. peacekeeping there, MINUSCA, is playing a critical 
role in maintaining stability. Let me say at the outset that it 
is certainly my view that the U.N. peacekeeping is a vital tool 
at our disposal to keep civil wars from expanding into regional 
conflicts, reduce force displacement, and prevent terrorists 
and criminals from establishing safe havens in places in 
countries where governance is weak.
    International peacekeeping efforts save the U.S. money and 
resources while protecting our national interests. This 
viewpoint is not mine alone. A 2018 U.S. Government 
Accountability Office report found that U.N. peacekeeping 
missions operate at one-eighth the cost of what it would take 
to deploy American troops alone.
    The U.S. military shares the same view about the value of 
peacekeeping. Lt. Gen. Castellaw who served over 30 years in 
the U.S. Marine Corps backs up this report. He said, and I 
quote, ``Having spent about a third of my career deployed 
outside the United States, I know that Americans are not afraid 
to go in harms way. But we can't be and we shouldn't have to be 
everywhere all the time. U.N. peacekeeping, like the mission I 
saw in CAR, helps ensure every country does its fair share to 
protect vulnerable populations and promote peace. It saves us 
money but, more importantly, it saves the lives of those who 
serve.''
    I mentioned peacekeeping to Lt. Gen. Castellaw because I 
traveled with him to the Central African Republic to see the 
work of the U.N. peacekeeping mission in that country up close. 
When I traveled with Lt. Castellaw in 2017, I witnessed 
firsthand the invaluable contributions of U.N. peacekeepers at 
preventing genocide. I saw peacekeepers protecting civilians 
and meeting with both Christian and Muslim communities to bring 
neighbors together and rebuild after conflict.
    I also met with President Touadera, a former mathematics 
professor, who is committed to bringing peace not just to the 
capital of Bangui, but to the remote areas about and beyond to 
bring peace dividends to those marginalized communities.
    I understand the challenges that the country still faces, 
including the lack of infrastructure, the difficulties of 
rebuilding the security sector, the need to end corruption, 
promoting good government, and reforming the justice system to 
end cycles of violence and revenge. For now, more than 600,000 
people remain exiled in squalid, poorly funded refugee camps, 
most in Cameroon, Chad, and the Democratic Republic of Congo. 
And 464,000 more are dispersed across CAR where 14 armed groups 
are vying for control.
    But there is also hope, despite these ongoing challenges. 
For instance, the United Nations Refugee Agency said it has 
helped support the voluntary repatriation of around 1,500 
refugees this year alone, while a further 14,000 have expressed 
willingness to be repatriated in the coming months thanks to 
improved security.
    In February of this year the government signed an African 
Union-sponsored peace agreement with 14 armed groups that have 
controlled large swaths of territory in CAR. The peace 
agreement's aim is to decrease violence and include the voices 
of marginalized communities. These are definite signs of 
progress. But a bevy of challenge remain which this legislation 
can help ameliorate.
    This bill highlights the U.S. commitment to the people of 
the Central African Republic in supporting a democratic 
government in their efforts to make a lasting peace in the 
country and the region. It calls for continued U.S. support for 
U.N. peacekeeping operations, it recognizes the progress that 
has been made, and lays out opportunities for tackling the 
challenges that remain.
    It is my hope that the strong showing of support for this 
resolution will help keep progress moving and demonstrate the 
ongoing commitment of the U.S. Government to achieving peace in 
the Central African Republic.
    With that, I yield back. And thank you, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Cicilline.
    Is there anyone else on the Republican side seeking 
recognition?
    [No response.]
    Chairman Engel. OK, then we will go to Mr. Castro.
    Mr. Castro. Thank you, Chairman. And thank you to Ranking 
Member McCaul. These measures, all seven, are useful steps 
toward addressing challenges and capitalizing on opportunities 
around the world today. All will improve our country's 
standing, strengthen our security, and ensure the United States 
remains a champion of liberty and justice for all in our 
foreign policy. I am proud to support passage for each of them, 
and will highlight a few specifically.
    Before us are three measures responding to the situation in 
Hong Kong that reaffirm American commitment to universal 
liberties. Just as the United States must be earnest in 
promoting common cause on fundamental values, we must also call 
out abuses. These items from my colleagues on this committee 
make clear that the United States will stand up for basic 
rights and do its part to stop persecution.
    The United States has a moral responsibility to call out 
misbehavior and not turn a blind eye to wrongdoing around the 
world. That is why I support these urgent and timely actions.
    When citizens took to the streets to register their 
opposition to a proposed Extradition Bill that would have 
flagrantly undermined the rule of law, they were defending 
their vital semi-autonomous status under the ``one country, two 
systems'' framework established in 1997. As those in Hong Kong 
continue to exercise civil disobedience, they deserve 
protection. Violence by any party is unacceptable.
    A testament to the success of universal rights and 
protections, the United States is the greatest example of self-
determination for freedom-loving people the world over. As 
proud Americans, we should not compromise our values, nor 
censor criticism especially to appease anti-democratic 
authoritarians, not today and not ever. Amid reports of Chinese 
Communist Party disinformation campaigns and the buildup of 
military personnel on the mainland, we must clearly condemn 
efforts to silence the voice of the people.
    Thirty years removed from Tiananmen Square, the 
international community still remembers and watches vigilantly 
today. I stand in solidarity with peaceful supporters of 
freedom.
    Thank you, Chairman. I yield back.
    Chairman Engel. Thank you, Mr. Castro.
    Mr. Levin.
    Mr. Levin. Mr. Chairman, I move to strike the last word.
    I want to thank you, Chairman Engel, as well as Ranking 
Member McCaul for this package of bills. And I want to speak 
particularly on H. Res. 552 which calls on the Russian 
Government to provide evidence of wrongdoing or to release 
United States citizen Paul Whelan. Mr. Whelan is a Michigander 
from the district of my friend and neighboring Congresswoman 
Haley Stevens. He was arrested in Russia in December of last 
year and has been held without trial in a Russian prison.
    The Russian Government has presented zero evidence that 
Paul committed a crime, and yet, he remains in prison, denied 
due process. And now he is in very poor health. We must bring 
Paul Whelan home.
    I hope this resolution sends a clear message to the Russian 
Government, and I hope it assures his brave family that we are 
absolutely committed to getting Paul back to Michigan safely 
and soon.
    I strongly urge everyone on this committee to support this 
resolution. And I yield back the balance of my time.
    Chairman Engel. Thank you, Mr. Levin.
    Are there any other members seeking recognition?
    Mr. Malinowski.
    Mr. Malinowski. Thank you, Mr. Chairman. I just want to say 
a couple of things about the Hong Kong bills.
    I am very, very glad that we are moving them forward on a 
bipartisan basis. The Hong Kong people's struggle for democracy 
and human rights is their struggle, theirs alone, led by them, 
but it also clearly implicates America's national interests. 
This is about a promise that the Chinese Communist Party made, 
not just to the people of Hong Kong but to all of us, including 
the United States, that Hong Kong's autonomy as a rule of law 
environment would be maintained. That promise is being 
violated. And I think it is extremely important that we 
communicate clearly to the Chinese Government that these 
promises need to be kept.
    And I can say from my own experience as a former diplomat 
having dealt with the Chinese, that they, they are very, very 
concerned about international opinion. Their frantic efforts to 
persuade us not to pass resolutions like this, not to make 
statements like this are a testament to their sensitivity and 
their concern about what the international community may think.
    I also want to add that I do hope as we rightly speak out 
about the events in Hong Kong that we also move as quickly as 
possible to address another human rights situation in China, 
the situation involving the Uighur people. As awful as Chinese 
influence, repression in Hong Kong has been, it pales in 
comparison to what is probably the single greatest abuse of 
human rights in the world today, the detention of up to 10 
percent of the popula--the Uighur population, and attempt to 
essentially eradicate a people and a culture.
    We have legislation in the House that is, frankly, it is 
good. I would even want it to be stronger. I believe we 
absolutely do need to mandate sanctions against those 
responsible in China for these terrible abuses, and to wrestle 
more than we have with the question of complicity by American 
and multinational companies in China's instruments of 
oppression: its surveillance state, its labor abuses in 
Xinjiang and so forth.
    So, I hope that we will come soon to a point where this 
committee can come together around some strong measures to deal 
with the situation in Xinjiang as well.
    Thank you, and I yield.
    Chairman Engel. Thank you, Mr. Malinowski.
    Anyone else seeking recognition?
    [No response.]
    Chairman Engel. OK, hearing no further requests for 
recognition, and without objection, the committee will proceed 
to consider the noticed items en bloc. Without objection, each 
measure is considered as read and the amendments to each are 
considered as read and are agreed to.
    [The Measures and Amendments en bloc follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. The question occurs on the measure en bloc, 
as amended, if amended. All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. The measures 
considered en bloc are agreed to. And without objection, each 
measure if ordered favorably reported, as amended, if amended. 
And any amendments to a bill shall be reported as a single 
amendment in the nature of a substitute.
    Without objection, staff is authorized to make any 
technical and conforming changes. And this concludes our 
business today.
    I want to once again thank Ranking Member McCaul and all of 
the committee members for their contributions and assistance 
with today's markup. The committee stands adjourned.
    [Whereupon, at 11:02 a.m., the committee was adjourned.]

                                APPENDIX

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             MARKUP SUMMARY
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
